                                      SOCIAL SECURITY
MEMORANDUM

Date:   March 25, 2004                                                            Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         California

From:   Assistant Inspector General
         for Audit

Subject: Interim Assistance Reimbursement to Los Angeles County, California, Under the
        Supplemental Security Income Program (A-13-02-12039)


        The attached final report presents the results of our audit. Our objectives were to
        determine whether the Los Angeles County, California, Department of Public Social
        Services (1) calculated and deducted the correct amount of interim assistance from the
        retroactive Supplemental Security Income payments received from the Social Security
        Administration and provided the balance to the recipient timely and (2) returned to the
        Agency any excess amounts that could not be remitted to the recipient.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Shirley E. Todd, Director, General Management Audit Division, at
        (410) 966-9365.




                                                       S
                                                       Steven L. Schaeffer

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       INTERIM ASSISTANCE
       REIMBURSEMENT TO
 LOS ANGELES COUNTY, CALIFORNIA,
    UNDER THE SUPPLEMENTAL
   SECURITY INCOME PROGRAM

 March 2004         A-13-02-12039


   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                     Executive Summary
OBJECTIVES

Our objectives were to determine whether the Los Angeles County, California,
Department of Public Social Services (DPSS) (1) calculated and deducted the correct
amount of interim assistance from the retroactive Supplemental Security Income (SSI)
payments received from the Social Security Administration (SSA) and provided the
balance to the recipient timely and (2) returned to the Agency any excess amounts that
could not be remitted to the recipient.

BACKGROUND
In 1974, the Congress established the SSI program under Title XVI of the Social
Security Act. The SSI program provides a minimum income level to financially needy
individuals who are aged, blind, or disabled. These individuals may qualify for
payments under the SSI program upon filing an application with SSA.

Many SSI applicants need financial aid before SSA can establish eligibility. Therefore,
States may enter into an agreement with SSA whereby the States provide the individual
interim assistance from State funds. Upon determining the applicant’s eligibility for SSI,
SSA reimburses the State or local government for payments made to the recipient from
State funds. This coordinated Federal/State program is called the Interim Assistance
Reimbursement (IAR) program. During State Fiscal Years (SFY) July 1, 1999 through
June 30, 2001, SSA made about $460 million IAR-related payments to 38 States and
the District of Columbia.

RESULTS OF REVIEW
We found:

•   interim assistance reimbursement authorizations could not always be provided;

•   payments of residual balances due to SSI recipients were not always paid timely;

•   undeliverable payments due to SSI recipients were not always refunded timely to
    SSA; and

•   payments due to SSI recipients were not always paid timely or in appropriate
    amounts.




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)     i
CONCLUSIONS AND RECOMMENDATIONS

Generally, we found DPSS calculations of payments due to SSI recipients and its
reimbursable amounts from the retroactive SSI payments complied with applicable
policies. However, DPSS should have available appropriate documentation authorizing
it to reimburse itself from the retroactive payments received from SSA. Further, DPSS
should develop and implement written policies and procedures to improve timeliness of
providing certain payments to SSI recipients and forwarding undeliverable payments to
SSA.

SSI recipients are aged, blind, or disabled individuals with limited income and
resources. Consequently, it is imperative that these individuals receive all benefit
payments due them as soon as possible. We believe SSA has a stewardship
responsibility to ensure that all SSI-related payments are made timely and in the
appropriate amount.

We recommend SSA:

•   Instruct DPSS to produce the IAR authorizations for the 36 and 38 sample cases in
    SFYs 2000 and 2001, respectively, or determine whether DPSS appropriately
    reimbursed itself for these retroactive SSI payments.

•   Instruct DPSS to determine the extent to which unauthorized reimbursements were
    made from retroactive SSI payments in SFYs 2000 and 2001, and SSA should
    determine whether DPSS appropriately reimbursed itself for these retroactive SSI
    payments.

•   Instruct DPSS to cease its practice of deferring case reviews for 90 days in
    instances where the State's final assistance payments are included in its
    reimbursement amounts.

•   Clarify the “prescribed time limit” for refunding to SSA undeliverable payments due
    SSI recipients.

•   Ensure DPSS makes payments totaling $1,411 due to one SSI recipient.

AGENCY COMMENTS

SSA agreed with our recommendations. Regarding Recommendation 2, DPSS has
agreed to conduct a self-audit of a 5 percent random sample of the approximately
14,000 cases with IAR reimbursements to determine the extent of the unauthorized
reimbursements made in SFYs 2000 and 2001. The Agency stated that it would assist
DPSS with questions surfacing during the self-audit. However, due to staffing
constraints, SSA will be unable to review the random sample of approximately
700 cases. For Recommendation 3, SSA stated it is pleased to see that DPSS has



Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)   ii
taken action to conduct more expeditious review of its reimbursement cases to ensure
timely refunds are made to SSI individuals.

DPSS COMMENTS
DPSS agreed with our recommendations. DPSS stated it has implemented 3 of the
5 recommendations and plans to implement the remaining 2 recommendations during
2004. Further, DPSS indicated that for Recommendation 1, if IAR authorization forms
are not locatable, it would refund IARs as appropriate.

OIG RESPONSE

If DPSS determines through its random sample of 14,000 IAR cases that a significant
amount of payments were not supported by appropriate documentation, then DPSS
should refund all unsupported payments. With respect to Recommendation 5, DPSS
stated that it sent a check to the SSI recipient on July 3, 2000 and the recipient
negotiated the check on October 6, 2000. We have verified this fact. However, as of
the date of this report, we have not received documentation to verify DPSS’s
implementation of Recommendations 3 and 4. We support and encourage SSA and
DPSS to continue to take actions to address the areas of concern noted in this report.




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)   iii
                                                                            Table of Contents
                                                                                                                    Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

IAR Authorizations Could not be Provided.........................................................4

Untimely Payments to SSI Recipients and SSA Evidenced in IAR
Program ................................................................................................................5

       Payments of Residual Balances Due to SSI Recipients Were not
       Always Paid Timely .........................................................................................5

       Undeliverable Payments Due to SSI Recipients Were not Always
       Refunded Timely to SSA .................................................................................6

       Payments Due to SSI Recipients Were not Always Paid Timely or in
       Appropriate Amounts.......................................................................................7


CONCLUSIONS AND RECOMMENDATIONS.......................................................9

OTHER MATTERS ...............................................................................................11

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – Los Angeles County Department of Public
             Social Services Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
                                                                         Acronyms
 DPSS             Department of Public Social Services

 IAR              Interim Assistance Reimbursement

 OIG              Office of the Inspector General

 SFY              State Fiscal Year

 SSA              Social Security Administration

 SSI              Supplemental Security Income




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
                                                                             Introduction
OBJECTIVES

Our objectives were to determine whether the Los Angeles County, California,
Department of Public Social Services (DPSS) (1) calculated and deducted the correct
amount of interim assistance from the retroactive Supplemental Security Income (SSI)
payments received from the Social Security Administration (SSA) and provided the
balance to the recipient timely and (2) returned to the Agency any excess amounts1 that
could not be remitted to the recipient.

BACKGROUND

In 1974, the Congress established the SSI program under Title XVI of the Social
Security Act.2 The SSI program provides a minimum income level to financially needy
individuals who are aged, blind, or disabled.3 These individuals may qualify for
payments under the SSI program upon filing an application with SSA.4

Many SSI applicants need financial aid before SSA can establish eligibility. Therefore,
States may enter into an agreement with SSA whereby the States provide individuals
interim assistance from State funds. Upon determining the applicant’s eligibility for SSI,
SSA reimburses the State or local government for payments made to recipients from
State funds. This coordinated Federal/State program is called the Interim Assistance
Reimbursement (IAR) program.

Section 1631(g)(4) of the Social Security Act,5 SSA regulation,6 and the IAR State
Handbook7 contain guidance that governs the distribution of retroactive payments to SSI
recipients. The SSA regulation states, “…an interim agreement must be in effect
between us [SSA] and the State if we are to repay the State for interim assistance.”
This regulation provides, in part, that the agreement require that the State:

•     deduct the correct amount of IAR payments from the retroactive SSI payments;

1
 The amount of retroactive SSI payment that remains after DPSS deducts the interim financial
assistance it provided the recipient.
2
    Public Law 92-603, 42 U.S.C. § 1381 et seq.
3
    42 U.S.C. § 1381.
4
    42 U.S.C. § 1381a.
5
    42 U.S.C. § 1383(g)(4).
6
    20 C.F.R. § 416.1910.
7
 SSA Interim Assistance Reimbursement State Handbook, Publication 17-007, Section 3 - IAR
Agreement, P. 3, February 1990.


Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)       1
•     issue any remaining retroactive SSI payments to the individual (or representative
      payee) within 10 working days from the date it receives payment from SSA;

•     send the individual a notice explaining the allocation of the retroactive SSI payment
      and the individual’s right to a hearing if he/she disagrees with the action taken
      regarding the apportionment of the retroactive check; and

•     refund any remaining retroactive SSI payment balances to SSA, if payment cannot
      be made to the individual (or representative payee).

During State Fiscal Years (SFY) 2000 and 2001, SSA made a total of about
$460 million IAR-related payments to 38 States and the District of Columbia,8 including
about $36 million to DPSS.9

SCOPE AND METHODOLOGY

To accomplish our objectives, we:

•     Determined the number of IAR-related payments processed and paid to DPSS
      during SFYs 2000 and 2001.10

•     Identified, obtained and reviewed SSA, State of California, and DPSS policies and
      procedures concerning the IAR program.

•     Reviewed applicable Single Audit and State of California internal control reports for
      SFYs 2000 and 2001.

•     Reviewed 200 randomly selected IAR cases processed by DPSS during SFYs 2000
      and 2001 for compliance with applicable policies and procedures11 (see Appendix A).




8
    SFYs 2000 and 2001 are the period July 1, 1999 through June 30, 2001.
9
    We extracted these financial data from the SSA Supplemental Security Records history data files.
10
  In SFY 2000, there were 5,721 IAR payment cases, totaling $20 million, and, in SFY 2001, there were
4,971 IAR payment cases, totaling $16 million.
11
  We did not determine whether the SSI recipient received the payments made by the State. Further, we
did not interview the SSI recipients.



Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)               2
•    Reviewed 57 canceled payments to SSI recipients that were processed by DPSS
     during SFYs 2000 and 2001.12 We did not independently determine the number of SSI-
     related payments DPSS should have returned to SSA during SFYs 2000 and 2001.

We reviewed State agency internal control procedures necessary to meet our objectives.
Except as noted in the Results of Review section of this report, we found no instances of
noncompliance.

We did not determine the reliability of the computer-processed data because we limited
their use in our audit. We tested the Social Security number data element included in
an extract from SSA’s Supplemental Security Record system. The use of these data
was limited to determining the number of sample units for our audit. The test performed
determined the accuracy of the Social Security numbers. We did not test the data
element for completeness or validity. However, we were able to use the data for our
intended purpose. Our review was conducted in accordance with generally accepted
government auditing standards. The entity reviewed was the DPSS, and we performed
our initial fieldwork for this audit from February 2002 through February 2003. At the
request of SSA, we performed additional audit work from July through November 2003.




12
  Payments due to SSI recipients, after DPSS deducts its reimbursable portion of the SSI retroactive
payment received from SSA that were returned to the County as undeliverable due to death or incorrect
address.


Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)                3
                                                                     Results of Review
Generally, we found DPSS calculations of payments due to SSI recipients and its
reimbursable amounts from the retroactive SSI payments complied with applicable
policies. However, we found initial interim assistance documentation could not always
be provided. We also found untimely payments of residual balances to SSI recipients
and untimely refunding to SSA of undeliverable payments. Finally, we found other
payments due to SSI recipients were not paid timely.

IAR Authorizations Could not be Provided

DPSS could not always provide the IAR authorizations. The IAR agreement between
SSA and the State of California requires that the State “…retain each authorization it
receives (or a copy thereof) for a total of three years from the date said authorization is
received and for such longer period as is required for completion or resolution of the
audits, litigation, or other actions involving such records of which the State has actual
notice and which are commenced before the end of the three year period.”13

The initial application includes, but is not limited to, the IAR authorization form. This
form authorizes DPSS to deduct from the initial retroactive SSI payment the amount of
interim assistance provided to the SSI recipient. Additionally, the initial application
contains pertinent “due process” documentation. This documentation includes
protective filing14 and life-of-authorization15 information.

We requested the initial application documentation related to the 200 cases sampled.
However, DPSS staff stated the system it used to store the initial interim assistance
applications made it difficult to locate the documentation. Therefore, DPSS could only
provide this documentation for 126 cases (63 percent). For the 200 cases reviewed, we
did not independently determine whether each recipient received interim assistance
payments.

DPSS could not provide documentation authorizing it to reimburse itself from the
retroactive payments received for 37 percent (36 cases in SFY 2000 and 38 cases in
SFY 2001) of the cases we reviewed. Without the IAR authorizations, DPSS should not
have reimbursed itself for approximately $77,000 in SFY 2000 and $65,000 in SFY
2001. Based on our sample results, we estimate that DPSS cannot provide the IAR
authorizations for about 2,060 cases in SFY 2000 and 1,889 cases in SFY 2001.


13
   Agreement for Reimbursement to State for Interim Assistance Payments Pursuant to Section 1631(g)
of the Social Security Act Between the Secretary of Health and Human Services and the State of
California, Article VIII, Examination and Retention of Records, paragraph B, May 24, 1989.
14
   Eligibility can begin as early as the date the State receives the IAR authorization form if the applicant
files for SSI benefits within 60 days from that date.
15
     Length of time the authorization can be used for IAR reimbursement.


Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)                       4
Consequently, we estimate DPSS should not have reimbursed itself about $4.4 million
in SFY 2000 and about $3.2 million in SFY 2001 from the retroactive payments.

Untimely Payments to SSI Recipients and SSA Evidenced in IAR
Program
                               Payments of residual balances due SSI recipients were
 Payments of Residual          not always made timely. The DPSS often includes in its
 Balances Due to SSI           reimbursable amounts the final interim assistance
 Recipients Were not           payments made to SSI recipients. SSA regulation16
 Always Paid Timely            allows DPSS to take this action only if the State has
                               prepared and cannot stop delivery of the last assistance
payment when it receives the SSI payment from SSA. We did not determine whether
DPSS could stop the final interim assistance payments. However, when reimbursed
amounts include final interim assistance payments, DPSS should promptly identify and
pay any excess reimbursement that belongs to the SSI recipient.

DPSS’ Interim Assistance Unit maintains a list of final interim assistance payments that
were authorized and included in the reimbursement amounts deducted from retroactive
SSI payments. Three months after the processing month in which the final payments
were authorized, the Interim Assistance Unit reviews its automated systems to
determine whether the final payments were issued to SSI recipients. If it is determined
SSI recipients did not receive their final payments, the amount due from DPSS to the
SSI recipient is calculated. Subsequently, DPSS notifies the County Comptroller to
send the amounts due to the recipients.

We randomly selected and reviewed 200 interim assistance cases DPSS processed
during SFYs 2000 and 2001. Of these, we identified 41 cases (14 cases in SFY 2000
and 27 cases in SFY 2001) in which DPSS incorrectly included the final assistance
payments in its reimbursement amounts taken from the retroactive SSI payments. As a
result, we determined DPSS did not timely pay SSI recipients about $9,600. In
10 (71 percent) of the SFY 2000 cases and 24 (89 percent) of the SFY 2001 cases,
DPSS took over 90 business days to authorize payment of the residual balances due
SSI recipients (see Table 1). Based on our sample results, we estimate that about
2,143 SSI recipients were not timely paid approximately $498,660 in benefit payments
(see Appendix A).




16
     20 C.F.R. § 416.1902.



Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)   5
         Table 1. Number of Days and Cases DPSS Delayed Payments Due to SSI Recipients17

          SFY         Lapsed       Lapsed          Lapsed      Lapsed       Lapsed      Number
                       Days         Days            Days        Days         Days       of Total
                      1 to 30      31 to 60        61 to 90   91 to 120    over 121     Cases
          2000           0             1              3           5            5           14
          2001           1             2              0           5           19           27
         Totals          1             3              3          10           24           41

The amounts deducted from the SSI retroactive payments were not correct. Higher
reimbursement amounts were deducted because DPSS presumed recipients received
the final interim assistance payments. In addition, the amounts due to SSI recipients
were not identified and paid timely because of DPSS’ practice of deferring reviews of
cases for 90 days where the final interim assistance payments were included in its
reimbursement amounts. Since DPSS is aware that payments may be due to SSI
recipients, we believe a 3-month waiting period is excessive and unacceptable for
identifying and paying the SSI recipients.

Undeliverable Payments          DPSS did not always refund timely to SSA undeliverable
Due to SSI Recipients           payments18 due to SSI recipients. After DPSS deducts
Were not Always                 the amount of interim assistance provided from the SSI
Refunded Timely to SSA          retroactive payments, it is required to forward any
                                residual payments to SSI recipients. DPSS is required to
refund payments returned undeliverable to SSA. The State’s IAR agreement19 requires
that undeliverable payments be forwarded to SSA within the “prescribed time limit.” The
IAR agreement identifies a “10 working days” time frame. However, the IAR agreement
is not clear as to the prescribed time limit. State procedures provide instructions to
refund these payments to SSA within 60 days.

For SFYs 2000 and 2001, DPSS identified 57 undeliverable payments totaling $46,700.
The payments were undeliverable because addresses were unknown or the SSI
recipient had died. These payments were refunded to SSA.

Of the 57 payments, DPSS took over 71 business days to refund 29 payments
(71 percent) in SFY 2000, and 11 payments (68 percent) in SFY 2001 (see Table 2).
DPSS did not have procedures to ensure the timely refund of these payments to SSA.
We believe taking more than 71 business days to forward these undeliverable payments
to SSA is not timely. As a result, SSA is delayed in its efforts to locate and pay SSI
recipients.

17
     Days represent business, not calendar days.
18
     Undeliverable payments are payments due SSI recipients that are returned to SSA.
19
   Agreement for Reimbursement to State for Interim Assistance Payments Pursuant to Section 1631(g)
of the Social Security Act Between the Secretary of Health and Human Services and the State of
California, Article IV, Functions To Be Performed By the State, paragraph C, May 24, 1989.


Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)              6
 Table 2. Number of Days and Cases Before DPSS Forwarded Undeliverable Payments Due to SSI
                                     Recipients to SSA20

          SFY         Lapsed       Lapsed          Lapsed     Lapsed     Lapsed        Number
                       Days         Days            Days       Days       Days         of Total
                      1 to 60      61 to 70        71 to 80   81 to 90   over 91       Cases
          2000           10           2               3          8         18             41
          2001            2            3              0          0         11             16
         Totals          12           5               3          8         29             57

                                    DPSS did not always issue payments timely or pay
Payments Due to SSI                 appropriate amounts due to SSI recipients. Specifically,
Recipients Were not                 DPSS sometimes deducts higher reimbursement amounts
Always Paid Timely or               from the retroactive SSI payments than it should. As a
in Appropriate Amounts              result, DPSS did not timely pay SSI recipients the correct
                                    amount.

Federal Law requires that State agencies issue payments to individual interim
assistance recipients for the balance of IARs in excess of the reimbursement amount
within 10 working days or a shorter period specified in the interim assistance
agreement.21 Of the 200 cases reviewed, we found 6 (5 in SFY 2000 and 1 in
SFY 2001), totaling $6,557, with payments not issued within the required time period.
Based on our sample, we estimate DPSS did not issue payments timely to SSI
recipients for approximately 286 cases totaling $310,776 (see Appendix A). Of the six,
payments for five cases (totaling $5,146) were eventually paid to SSI recipients.

We could not independently determine the cause for the increased timeliness in
processing evidenced in the SFY 2001 cases examined as compared to the
SFY 2000 cases. To determine the source of the improvements in IAR cases timely
processed, we contacted DPSS officials. DPSS officials explained the improvement
was due largely to mid-level management changes and increased management
oversight within its Interim Assistance Unit22 in SFY 2000.

For the remaining case, at the time of our audit, DPSS had not issued payments to the
SSI recipient. Based on SSA policy and our calculations, DPSS should have issued
$1,411 to this recipient. DPSS reported it had issued the payment. However, DPSS
has not provided us information to support the assertion that the payment was issued.



20
     Days represent business, not calendar days.
21
     42 U.S.C. 1383(g)(4).
22
  The DPSS staff is responsible for processing and authorizing the IAR and forwarding payments to SSI
recipients.


Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)            7
DPSS did not have adequately documented procedures for processing retroactive SSI
payments. However, some procedures were in place but did not ensure payments due
to SSI recipients were issued timely and in the appropriate amount. Without adequate
documented procedures, DPSS staff may not always process IAR cases accurately,
consistently, and pay amounts due to SSI recipients timely.




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)   8
                                                         Conclusions and
                                                        Recommendations
Generally, we found DPSS calculations of payments due to SSI recipients and its
reimbursable amounts from the retroactive SSI payments complied with applicable
policies. However, DPSS should have available appropriate documentation authorizing
it to reimburse itself from the retroactive payments received from SSA. Further, DPSS
should develop and implement written policies and procedures to improve timeliness of
providing certain payments to SSI recipients and forwarding undeliverable payments to
SSA.

SSI recipients are aged, blind, or disabled individuals with limited income and
resources. Consequently, it is imperative that these individuals receive all benefit
payments due them as soon as possible. We believe SSA has a stewardship
responsibility to ensure all SSI-related payments are made timely and in the appropriate
amount.

We recommend SSA:

   1. Instruct DPSS to produce the IAR authorizations for the 36 and 38 sample cases
      in SFYs 2000 and 2001, respectively, or determine whether DPSS appropriately
      reimbursed itself for these retroactive SSI payments.

   2. Instruct DPSS to determine the extent to which unauthorized reimbursements
      were made from retroactive SSI payments in SFYs 2000 and 2001, and SSA
      should determine whether DPSS appropriately reimbursed itself for these
      retroactive SSI payments.

   3. Instruct DPSS to cease its practice of deferring case reviews for 90 days in
      instances where the State's final assistance payments are included in its
      reimbursement amounts.

   4. Clarify the “prescribed time limit” for refunding to SSA undeliverable payments
      due SSI recipients.

   5. Ensure DPSS makes payments totaling $1,411 due to one SSI recipient.

AGENCY COMMENTS

SSA agreed with our recommendations. Regarding Recommendation 2, DPSS agreed
to conduct a self-audit of a 5 percent random sample of the approximately 14,000 cases
with IAR reimbursements to determine the extent of the unauthorized reimbursements
made in SFYs 2000 and 2001. The Agency stated that it would assist DPSS with
questions surfacing during their self-audit. However, due to staffing constraints, SSA
will be unable to review the random sample of approximately 700 cases. For


Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)   9
Recommendation 3, SSA stated it is pleased to see that DPSS has taken action to
conduct more expeditious review of its reimbursement cases to ensure timely refunds
are made to SSI individuals. See Appendix B for the full text of SSA’s comments.

DPSS COMMENTS
DPSS agreed with our recommendations. DPSS stated it has implemented 3 of the
5 recommendations and plans to implement the remaining 2 recommendations during
2004. Further, DPSS indicated that for Recommendation 1, if IAR authorization forms
are not locatable, it would refund IARs as appropriate. See Appendix C for the full text
of DPSS’s comments.

OIG RESPONSE

If DPSS determines through it’s random sample of 14,000 IAR cases that a significant
amount of payments were not supported by appropriate documentation, then DPSS
should refund all unsupported payments. With respect to Recommendation 5, DPSS
stated that it sent a check to the SSI recipient on July 3, 2000 and the recipient
negotiated the check on October 6, 2000. We have verified this fact. However, as of
the date of this report, we have not received documentation to verify DPSS’s
implementation of Recommendations 3 and 4. We support and encourage SSA and
DPSS to continue to take actions to address the areas of concern noted in this report.




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
10
                                                                       Other Matters
 While we were conducting our audit, additional issues came to our attention. These
 issues are summarized below.

                                During our review, we identified several potential issues
      Several Problematic
                                that may be indicative of problems in the California and
      Conditions Exist in the
                                other IAR agreements. These conditions may be
      IAR Program
                                avoided if States are provided additional guidance for
                                processing retroactive SSI payments. Guidance is
 needed to address the timeliness of payments to SSI recipients and the related
 refunding of any undeliverable payments to SSA. We believe the Agency should
 consider modifying its IAR Handbook to:

 •     specify a reasonable time frame in which the States must determine whether final
       interim assistance payments included in its reimbursable amounts were appropriate,
       and

 •     clarify the “prescribed time limit” for refunding to SSA undeliverable payments due
       SSI recipients.

                              The State of California has established the following
Improper DPSS                 responsibilities for IAR participating agencies: “…if, by the tenth
Processing and                working day from the day of receipt of an initial payment23 the
Untimely Payments             participating agency has failed to forward the remittance (if any)
Evidenced in IAR              to the recipient or his/her representative payee, the participating
Program                       agency which received the initial payment shall send to the
                              recipient the full amount of the initial payment.”

 DPSS did not always process retroactive SSI payments within the required 10-workday
 period. As a result, the full amount of the retroactive SSI payments should have been
 sent to the appropriate recipients, as required by State policy. However, this did not
 occur.

 Of the 200 sample cases reviewed, we found 6 cases, totaling $10,930 in retroactive
 SSI payments that were not processed as required. For these 6 cases, payments were
 authorized but not paid to recipients within the required 10-workday period. In
 accordance with State policy, DPSS was required to remit the total amount of the
 retroactive payments to appropriate recipients. Based on our sample cases, we
 estimate that DPSS did not process approximately 286 cases within 10 workdays, as
 required by State policy. As a result, about $508,081 in retroactive payments was due
 recipients (see Appendix A).


 23
      The SSI retroactive payment.


 Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
 11
                                          Appendices




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
                                                                                   Appendix A
Sampling Methodology and Results
From the Social Security Administration, we obtained a list of 10,692 Interim Assistance
Reimbursement (IAR) payments to Department of Public Social Services (DPSS) for the
period July 1, 1999 through June 30, 2001. Our file contained 5,721 IAR payments with
a dollar value of $20 million for State Fiscal Year (SFY) 2000 and 4,971 payments with
a dollar value of $16 million for SFY 2001. For each SFY, we selected random samples
of 100 IAR payment transactions for review.

We reviewed each selected IAR payment transaction to determine whether DPSS
maintained the required initial interim assistance application, processed and paid
residual balances due to Supplemental Security Income (SSI) recipients within
10 workdays, deducted the correct amount of IAR reimbursement and refunded to SSA
any undeliverable payments due to SSI recipients timely. Our sample results and
projections are shown below for each SFY and in total for both SFYs. To be
conservative, where our review found fewer than five cases that met the specific
condition identified, we did not project the sample results to the population.



     Sample Results and Projections                     SFY 2000        SFY 2001             Total
Population size                                                 5,721          4,971           10,692
Sample size                                                       100            100              200

Sample cases where initial interim assistance                     36               38                74
application documentation was not located1
Point estimate – projection of cases where                      2,060          1,889             3,949
initial interim assistance application
documentation was not located
          Projection lower limit                              1,605           1,488
          Projection upper limit                              2,550           2,317
Amount of unauthorized State reimbursements                 $77,333         $65,233         $142,566
from the SSI retroactive payments due SSI
recipients
Point estimate – projection of amounts of               $4,424,220       $3,242,727       $7,666,947
unauthorized State reimbursements from the
SSI retroactive payments due SSI recipients
          Projection lower limit                        $2,689,521       $2,256,007
          Projection upper limit                        $6,158,919       $4,229,447
Note: All projections are at the 90-percent confidence level.




1
  Of the 36 and 38 cases identified in error, only 35 and 37 cases, respectively, had monetary errors. Our
dollar projections take into consideration this fact.
Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) A-1
     Sample Results and Projections                     SFY 2000         SFY 2001    Total
Population size                                                  5,721       4,971     10,692
Sample size                                                        100         100        200

Sample cases where residual balances due to                        14           27           41
SSI recipients were not paid timely
Point estimate – projection of cases where                        801        1,342      2,143
payments were not paid to SSI recipients
timely
        Projection lower limit                                     498         987
        Projection upper limit                                   1,199       1,749
Amount of residual balances due SSI                             $2,952      $6,634     $9,586
recipients that were not paid timely
Point estimate – projection of amounts due                $168,884        $329,776   $498,660
SSI recipients not paid timely
        Projection lower limit                             $99,470        $224,807
        Projection upper limit                            $238,298        $434,745
Note: All projections are at the 90-percent confidence level.




     Sample Results and Projections                     SFY 2000         SFY 2001    Total
Population size                                                  5,721       4,971     10,692
Sample size                                                        100         100        200

Sample cases where payments due to SSI                              5           1            6
recipients were not always paid timely and in
appropriate amounts
Point estimate – projection of cases where the                    286         N/A        286
payment was not processed and paid in
appropriate amounts within 10 workdays
        Projection lower limit                                     114         N/A
        Projection upper limit                                     583         N/A
Amount not paid to SSI recipients for cases                     $5,412      $1,145     $6,557
where the payments were not processed and
paid within 10 workdays and in appropriate
amounts
Point estimate – projection of amount not paid            $309,631          $1,145   $310,776
to SSI recipients for cases where the
payments were not processed and paid within
10 workdays and in appropriate amounts
        Projection lower limit                             $50,523            N/A
        Projection upper limit                            $568,740            N/A
Note: All projections are at the 90-percent confidence level.




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) A-2
     Sample Results and Projections                     SFY 2000         SFY 2001      Total
Population size                                                  5,721       4,971       10,692
Sample size                                                        100         100          200

Sample cases where the payment was not                              5           1              6
processed and paid within 10 workdays
Point estimate - projection of cases where the                    286         N/A           286
payment was not processed and paid within
10 workdays
        Projection lower limit                                     114         N/A
        Projection upper limit                                     583         N/A
Amount not paid to recipients for cases where                   $8,845      $2,085      $10,930
the payments were not processed and paid
within 10 workdays
Point estimate - projection of amount not paid            $505,996          $2,085    $508,081
to SSI recipients for cases where payments
were not processed and paid within
10 workdays
        Projection lower limit                             $69,147            N/A
        Projection upper limit                            $942,844            N/A
Note: All projections are at the 90-percent confidence level.

We could not independently determine the cause for the increased accuracy in
processing evidenced in the SFY 2001 cases examined as compared to the
SFY 2000 cases. To determine the source for the significant improvement in IAR cases
processed timely, we contacted DPSS officials. DPSS officials explained the
improvement was due largely to mid-level management changes and increased
management oversight within its Interim Assistance Unit2 during SFY 2001.




2
  The DPSS staff responsible for processing and authorizing the interim assistance reimbursement and
forwarding excess amounts to recipients.
Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) A-3
                                                                        Appendix B
Agency Comments




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
                                 SOCIAL SECURITY
MEMORANDUM

Date:      March 23, 2004                                       Refer To:   S2D9G3
                                                                            SI-16-2-13
To:        Steven L. Schaeffer
           Assistant Inspector General
           for Audit

From:      Regional Commissioner
           San Francisco

Subject:   Interim Assistance Reimbursement to Los Angeles County, California, Under the
           Supplemental Security Income Program (A-13-02-12039)


           We appreciate the opportunity to provide revised comments on the draft audit
           report of the Interim Assistance Reimbursement (IAR) Program of the
           Department of Public Social Services (DPSS) of Los Angeles County, California.
           We have updated and revised the comments sent to you on January 9, 2004, to
           account for recent activities by Los Angeles County in response to the audit
           findings:

           Recommendation 1: Instruct DPSS to produce the IAR authorizations for the 36
           and 38 sample cases in SFYs 2000 and 2001, respectively, or determine
           whether DPSS appropriately reimbursed itself for these retroactive SSI
           payments.

           Concur. We will instruct DPSS to produce copies of the IAR authorizations for
           the 74 sample cases identified in the audit to determine if it appropriately
           reimbursed itself for these cases.

           Recommendation 2: Instruct DPSS to determine the extent to which
           unauthorized reimbursements were made from SSI retroactive payments in SFYs
           2000 and 2001, and SSA should determine whether DPSS appropriately
           reimbursed itself for these retroactive SSI payments.

           Concur: DPSS has agreed to conduct a self-audit of a 5% random sample of the
           approximately 14,000 cases with IAR reimbursements to determine the extent of
           the unauthorized reimbursements made in SFYs 2000 and 2001. We will assist
           DPSS with questions that surface during their self-audit. However, due to
           staffing constraints, we will be unable to review the random sample of

Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) B-1
       approximately 700 cases to determine if DPSS appropriately reimbursed itself for
       those cases. SSA Central Office IAR staff has concurred with our decision.

       Recommendation 3: Instruct DPSS to cease its practice of deferring case
       reviews for 90 days in instances where the State’s final assistance payments are
       included in its reimbursement amounts.

       Concur: We are pleased to see that DPSS has taken action to conduct more
       expeditious review of its reimbursement cases to ensure that timely refunds are
       made to SSI individuals.

       Recommendation 4: Clarify the “prescribed time limit” for refunding to SSA
       undeliverable payments due SSI recipients.

       Concur. We will advise interim assistance agencies to refund to SSA any
       undeliverable payments within ten working days from the day they become
       aware that payments are undeliverable. Also, SSA plans to add this stipulation in
       its revision to the IAR Handbook which is currently under reconstruction.
       However, we do not plan to place this stipulation in the Agreement because it
       already requires States to follow all of SSA’s regulations and rules.

       Recommendation 5: Ensure DPSS makes payments totaling $1,411 due to one
       SSI recipient.

       Concur. We will ask DPSS to provide documents including the apportionment
       notice to support its assertion that $1,411 refund was made to the SSI individual.

       If members of your staff have any questions regarding the comments, they may
       contact Xiaowei Connolly, SSI Team, (510) 970-8258.




                                          for Peter D. Spencer




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) B-2
                                                                        Appendix C
Los Angeles County Department of Public
Social Services Comments




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) C-1
Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) C-2
Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039) C-3
                                                                        Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

    Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

    Brian Karpe, Lead Auditor, General Management (410) 966-1029

Acknowledgments

In addition to those named above:

    Brennan Kraje, Statistician

    Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our website at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-02-12039.




Interim Assistance Reimbursement to LA County, CA, Under the SSI Program (A-13-02-12039)
                        DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
